    REPORT ON THE QUALITY

    ASSESSMENT REVIEW OF

 INVESTIGATIVE OPERATIONS

                      of the

OFFICE OF INSPECTOR GENERAL

     U.S. GENERAL SERVICES
         ADMINISTRATION




                   Prepared by the
              Office of Inspector General
              U. S. Department of Energy
                   Washington, DC



 The Honorable Gregory H. Friedman, Inspector General
            Charles A. Romeo, Team Leader


                    March 3,2011
                                Department of Energy
                                 Washington, DC 20585


                                        March 3. 2011



The Honorable Brian D. Miller
Inspector General
U.S. General Services Administration
Office of Inspector General
1800 F Street, NW, Room 5340
Washington, D.C. 20405-0001


Subject:   Report on the Quality Assessment Review of Investigative Operations of the Office
           of Inspector General for the U.S. General Services Administration

Dear Mr. Miller:


We have reviewed the system of internal safeguards and management procedures for the
investigative functions of the U.S. General Services Administration (GSA), Office of Inspector
General (OIG), in effect from September 1, 2009, through August 31, 2010. Our review was
conducted in conformity with the Quality Assessment Review Guidelines for Federal Offices of
Inspector General (dated May 2009) issued by the Council of the Inspectors General on
Integrity and Efficiency (CIGIE). We examined compliance with CIGIE's Quality Standards
for Investigations (dated December 2003) as well as the Attorney General Guidelines for
Offices of Inspectors General with Statutory Law Enforcement Authority (dated December
2003).


The review was conducted between December 6, 2010, and December 13, 2010, at GSA OIG
Headquarters in Washington, D.C, and two regional offices (Boston and Philadelphia). The
Quality Assessment Review included, but was not limited to, a sampling of investigative case
files—limited checks, preliminary inquiries, and full investigations—closed during the
12-month period ending August 31, 2010. In conducting our review, we considered the
requirements of Section 6(e) of the Inspector General Act of 1978 (as amended) and Section
812 of the Homeland Security Act of 2002 (P.L. 107-296), both of which authorize law
enforcement powers for eligible personnel within the various offices of presidentially
appointed Inspectors General. Those powers may be exercised only for activities authorized
by the Inspector General Act of 1978, other statutes, or as expressly authorized by the U.S.
Attorney General.
In our opinion, the system of internal safeguards and management procedures for the
investigative functions of the GSA OIG in effect for the period September 1, 2009. through
August 31, 2010, was in compliance with the quality standards established by the CIGIE and
applicable Attorney General guidelines. Additionally, the safeguards and procedures provide
reasonable assurance of GSA conforming to professional standards in conducting its
investigations.




                                                Gregory H. Friedman
                                                Inspector General
                                                                         Attachment 1



SCOPE AND METHODOLOGY




The objective of the quality assessment review was to determine whether internal control
systems were in place and operating effectively to provide reasonable assurance that
professional standards were being followed. The professional standards included Council
of the Inspectors General on Integrity and Efficiency (CIGIE) Quality Standards for
Investigations and the Attorney General Guidelines for Offices of Inspector General with
Statutory Law Enforcement Authority. The U.S. General Services Administration's Office
of Inspector General has law enforcement powers pursuant to Section 6(e) of the Inspector
General Act of 1978, as amended.


We performed the review in accordance with CIGIE Qualitative Assessment Review
Guidelines for Federal Offices of Inspector General, dated May 2009. We used the
questionnaires and checklists that are attached to the review guidelines. The team
analyzed existing organizational policies and procedures, conducted interviews with
management officials and staff, reviewed closed investigative files and other
administrative records, and tested compliance with the U.S. General Services
Administration's internal control systems, to the extent we considered appropriate.

The Quality Assessment Review team did not include computer forensics operations in the
review; therefore, we did not use the computer forensics activities questionnaire portion of
the CIGIE Quality Assessment Review Guidelines.

Included in our site visits were Headquarters, Washington, D.C.; Boston Regional Field
Office, Boston, Massachusetts; and Philadelphia Regional Field Office, Philadelphia,
Pennsylvania.
                                    Attachment 2


LIST OF REVIEWED CLOSED INVESTIGATIVE FILES

Case File Number

10940003
1060121
1070013
1070185
10851447
I09D0164
10871775
10861731
1050189
I09H0802
I09W0672
1070104
I0920500
11030020
10891788
11040089
1070154
10811488
10851107
10881314
10871639
I0970056
I070235
1070127
I09W0231
I10W0328
I0920082
10831844
10891326
11090388
